No. ______
In the

Supreme Court of the United States
__________________

SCOTTIE A. BAGI and GARY C. VOJTUSH,
Petitioners,
v.
CITY OF PARMA, OHIO,
Respondent.
__________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________

David Glenn Phillips
Counsel of Record
The Brown Hoist Building
4403 St. Clair Avenue
Cleveland, Ohio 44103
(216) 531-0123
d.g.phillips@davidglennphillips.com
Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
The District Court granted summary judgment
upon a First Amendment retaliation claim brought by
public employee firefighters – ruling that their speech
was not protected by the First Amendment because the
speech was incorrect and the firefighters were
deliberately indifferent to the falsity of the speech. The
District Court then granted the public employer’s
motion for attorney fees against the firefighters under
42 U.S.C. §1988.
Petitions seek review before this Court on the
following questions:
Whether the District Court abused its discretion in
its application of the standards set forth in
Christiansburg Garment Co. v. EEOC, 434 U.S. 412
(1978) when it determined that a First Amendment
retaliation claim brought by public employee
firefighters (Petitioners herein) was frivolous and
awarded attorney fees against them under 42 U.S.C.
§ 1988 and in its award focused on the falsity of speech
– when the firefighter Petitioners demonstrated as a
basis for their claim that: (1) they experienced adverse
consequences because of their speech, (2) the Chief of
the Fire Department conceded that he believed
Petitioner Bagi felt there was some truth to the basis
of the speech, and (3) the arbitrator concluded that the
punishment against Petitioners was too severe and
rejected the contention that Petitioners’ speech was
motivated by malice or they made their speech knowing
that the allegations were false?

ii
Whether the public employer waived its ability to
obtain attorney fees under 42 U.S.C. § 1988 by not
submitting documentation of such fees timely under
the District Court’s Order?
Whether the District Court abused its discretion in
not permitting Petitioners to engage in discovery or
have a hearing on the reasonableness of the attorney
fees under 42 U.S.C. § 1988?
Whether the public employer was entitled to
attorneys fees under 42 U.S.C. § 1988 related to the
appeal of summary judgment in its favor when the
Court of Appeals affirmed the award on different
grounds and there was no order that the appeal was
frivolous under Fed. R. App. P. 38?

iii
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT
Scottie Bagi was a Plaintiff and Appellant in the
proceedings below.
Gary Vojtush was Plaintiff and Appellant in the
proceedings below.
The City of Parma was a Defendant and Appellee in
the proceedings below.
RULE 14.1(b)(iii) STATEMENT
The proceedings in federal trial and appellant
courts identified below are directly related to the above
captioned case in this Court:
Scottie A. Bagi, et al v. City of Parma, Case No. 1:14
CV 558, United States District Cut for the Northern
District of Ohio, Eastern Division.
Scottie A. Bagi et al v. City of Parma, Case No. 164011, United States Court of Appeals, for the Sixth
Circuit.
Scottie A. Bagi et al v. City of Parma, Case No. 183793, United States Court of Appeals for the Sixth
Circuit.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS AND
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . iii
RULE 14.1(b)(iii) STATEMENT . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE PETITION . . . 10
The Chill and Fear to Seek Protection of First
Amendment Rights . . . . . . . . . . . . . . . . . . . . . . . 10
Respondent Failed to Adhere to District Court’s
Order to Obtain Attorney Fees. . . . . . . . . . . . . . 14
The Court of Appeals’ Decision Related to
Discovery & a Hearing is Inconsistent . . . . . . . 15
Respondent is Not Entitled to Attorney Fees on
Appeal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

v
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(November 7, 2019). . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court for the Northern District of
Ohio, Eastern Division
(July 27, 2018) . . . . . . . . . . . . . . App. 17
Appendix C Order in the United States District
Court for the Northern District of
Ohio, Eastern Division
(May 8, 2018) . . . . . . . . . . . . . . . App. 21
Appendix D Order in the United States District
Court for the Northern District of
Ohio, Eastern Division
(December 15, 2016) . . . . . . . . . . App. 28
Appendix E Order Denying Petition for Rehearing
and Rehearing En Banc in the United
States Court of Appeals for the Sixth
Circuit
(December 17, 2019) . . . . . . . . . . App. 34

vi
TABLE OF AUTHORITIES
CASES
Chappel v. Montg. Co. Fire Prot. Dist. No. 1,
131 F.3d 564 (6th Cir. 1997). . . . . . . . . . . . . . . . 14
Christiansburg Garment Co. v. EEOC,
434 U.S. 412 (1978). . . . . . . . . . . . . . . . . . . passim
Farhat v. Jopke,
370 F.3d 580 (6th Cir. 2004). . . . . . . . . . . . . 13, 14
Hughes v. Rowe,
449 U.S. 5 (1980). . . . . . . . . . . . . . . . . . . . . . . 9, 10
Jones v. The Continental Corp.,
789 F.2d 1225 (6th Cir. 1986). . . . . . . . . . . . 10, 11
Michigan Flyer LLC v. Wayne Co. Airport Auth.,
860 F.3d 425 (6th Cir. 2017). . . . . . . . . . . . . . . . 12
Mys v. Mi. Dept. of State Police,
Case No. 17-445 (6th Cir. 2018) . . . . . . . . . . . . . 16
Riddle v. Egensperger,
266 F.3d 542 (6th Cir. 2001). . . . . . . . . . . . passim
Rodgers v. Banks,
344 F.3d 587 (6th Cir. 2005). . . . . . . . . . . . . . . . 13
See v. City of Elyria,
502 F.3d 484 (6th Cir. 2007). . . . . . . . . . . . . . . . 13
Smith v. Smythe-Cramer Co.,
752 F.2d 180 (6th Cir. 1985). . . . . . . . . . . . . . . . . 7
Wayne v. Village of Sebring,
36 F.3d 517 (6th Cir. 1994). . . . . . . . . . . . . . . . . 11

vii
Westmoreland v. Sutherland,
662 F.3d 714 (6th Cir. 2011). . . . . . . . . . . . . . . . 13
Williams v. Commonwealth of Ky.,
24 F.3d 1526 (6th Cir. 1994). . . . . . . . . . . . . . . . 14
Wilton Corp. v. Ashland Castings Corp.,
188 F.3d 670 (6th Cir. 1999). . . . . . . . . . . . . . . . 16
CONSTITUTION
U.S. Const. Amend. 1 . . . . . . . . . . . . . . . . . . . . . . . . . 1
U.S. Const. Amend. 14 Sec. 1 . . . . . . . . . . . . . . . . . . 1
STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . 2, 3, 9, 14
42 U.S.C. § 1988 . . . . . . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. § 1988(b). . . . . . . . . . . . . . . . . . . . . . . . . . . 2
RULES
Fed. R. App. P. 38. . . . . . . . . . . . . . . . . . . . . . . 5, 9, 16

1
Scottie A. Bagi and Gary Vojtush respectfully
petition for a writ of certiorari to review the Judgment
of the United States Court of Appeals for the Sixth
Circuit in this case.
OPINIONS BELOW
The Rule 36 disposition of the court of appeals is not
recommended for publication and is currently
unreported (Appendix A). The opinion of the District
Court that granted attorney fees under 42 U.S.C.
§ 1988 is unreported (Appendix B).
JURISDICTION
The judgment of the court of appeals was entered on
November 7, 2019 (Appendix A). A timely petition for
rehearing or rehearing en banc was denied on
December 17, 2019 (Appendix E). The jurisdiction of
this Court is invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. Amend. 1
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of
speech, or of the press, or the right of the people
peaceably to assemble, and to petition the
Government for a redress of grievances.
U.S. Const. Amend. 14 Sec. 1
All persons born or naturalized in the United
States and subject to the jurisdiction thereof, are

2
citizens of the United States and of the State
wherein they reside. No State shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any State deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.
42 U.S.C. § 1983
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress, except
that in any action brought against a judicial
officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall
not be granted unless a declaratory decree was
violated or declaratory relief was unavailable.
For the purposes of this section, any Act of
Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of
the District of Columbia.
42 U.S.C. § 1988(b)
In any action or proceeding to enforce a
provision of sections 1981, 1981a, 1982, 1983,

3
1985, and 1986 of this title, title IX of Public
Law 92-318 [ 20 U.S.C. 1681 et seq.], the
Religious Freedom Restoration Act of 1993 [ 42
U.S.C. 2000bb et seq.], the Religious Land Use
and Institutionalized Persons Act of 2000 [ 42
U.S.C. 2000cc et seq.], title VI of the Civil Rights
Act of 1964 [ 42 U.S.C. 2000d et seq.], or section
12361 of title 34, the court, in its discretion, may
allow the prevailing party, other than the
United States, a reasonable attorney’s fee as
part of the costs, except that in any action
brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity
such officer shall not be held liable for any costs,
including attorney’s fees, unless such action was
clearly in excess of such officer’s jurisdiction.
STATEMENT OF THE CASE
Petitioners Scottie Bagi and Gary Vojtush are public
employee firefighters for the City of Parma, Ohio. They
brought a lawsuit against their employer for retaliation
of their First Amendment rights under 42 U.S.C.
§ 1983 in the United States District Court for the
Northern District of Ohio. Petitioners’ speech consisted
of a letter they wrote to the Chief of the City’s Fire
Department and to the City’s Human Resource
Department, which raised allegations of impropriety of
a test given in the Fire Department and questioned the
integrity of a captain in the Fire Department.
Petitioners’ letter was investigated and the allegations
in the letter were determined by the Fire Department
to have no merit.

4
Petitioners were then subjected to discipline –
which was reviewed through the Fire Department’s
union arbitration proceeding.
The arbitrator
determined that Petitioners should be punished for the
allegations in the letter, but he reduced the
punishment to them. In making the determination
against Petitioners, the arbitrator rejected the
contention that they knowingly made false statements
in the letter or that the statements in the letter were
motivated by malice (See, App. A at 3).
The District Court granted summary judgment in
favor of the Petitioners’ employer on the ground that
their speech was not protected by the First Amendment
because they made the speech with a reckless
indifference to its falsity.1 After the District Court
granted summary judgment for the City, on September
2, 2016, the City it moved for a bill of costs and
attorney fees. Petitioners objected to the City’s
Motion.2 The District granted the City’s bill of costs on
December 15, 2016 and directed the City to submit
documentation of attorney fees within ten days of the
Court’s Order and provided Petitioners with only ten
days to respond (Appendix D). The City failed to

1

Petitioners appealed this award of summary judgment in favor
of their public employer to the Sixth Circuit Court of Appeals,
which affirmed summary judgment on different grounds. The
Sixth Circuit determined that Petitioners’ speech was not
protected by the First Amendment because it did not involve a
matter of public concern.
2

Petitioners filed their Opposition to this Motion, the City filed its
Reply in support of its Motion, and Petitioners then moved for
leave and filed their Response in Opposition.

5
submit its documentation within the ten days set forth
in the District Court’s Order, but such was accepted by
the Court days later over Petitioners’ objection as the
Court failed to address the issue. On January 5, 2017,
Petitioners filed their response to the City’s
documentation of fees, and they moved the District
Court to permit limited discovery and for a hearing on
the claimed attorney fees. The District Court did not
issue an order on the documentation of attorney fees or
on Petitioners’ Motion for Discovery and for a Hearing.
On March 8, 2018, more than four months after the
Sixth Circuit issued its Decision that affirmed the
award of summary judgment for the City on different
grounds, the City filed in the District Court its
Supplemental Motion for additional attorney fees for
work in the appeal of summary judgment.3 At this
point, the District Court still had not ruled on the
City’s initial Motion for fees or on Petitioners’ Motion
for discovery and a hearing on the fees.
On April 2, 2018, Petitioners opposed the City’s
Supplemental Motion and filed a Motion for
Reconsideration where they again sought discovery and
a hearing on the City’s Motion for attorney fees. The
City filed a Reply in support its Supplemental motion.
On May 8, 2018, the District Court granted the City’s
Supplemental Motion for additional attorney fees, and
denied Appellant’s Motion for Reconsideration and
refused to hold any hearing on the sanction or
reasonableness of attorney fees (Appendix C).

3

The Court of Appeals did not issue an order under Fed. R. App.
P. 38 that the appeal was frivolous.

6
On May 18, 2018, the City’s counsel filed a
supplemental declaration, and on May 21, 2018 counsel
submitted an exhibit in support of the additional
attorney fees on appeal. On June 3, 2018, Petitioners
filed their Objections to the City’s submission, and they
again moved for discovery and a hearing on the
sanction of attorney fees.
On July 27, 2018, the District Court issued its
Order awarding $175,125.50 in attorney fees for the
City and made the determination that a hearing or
discovery on the attorney fees was not necessary
(Appendix B). In the July 27, 2018 Order, the District
Court determined that the Court’s earlier rulings on
summary judgment and orders regarding fees satisfied
the standard and basis to award attorney fees under 42
U.S.C. § 1988 (Id.).
Appellants appealed this Order from the District
Court, and the Sixth Circuit issued its decision that
affirmed in part and vacated in part and remanded the
case for further proceedings to the District Court
(Appendix A). Specifically, the Court of Appeals
determined “that the district court did not abuse its
discretion on the ground that Plaintiffs’ lawsuit was
frivolous under the Christiansburg standards.” (Id. at
8). The Court of Appeals further found that the
District Court did not abuse its discretion in denying
Petitioners’ requests for discovery or a hearing on the
reasonableness of the award (Id. at 9). But then the
Court of Appeals reversed the District Court’s decision
on the basis of the reasonableness of the fee award
based on Petitioners’ ability to pay and remanded the

7
case for the lower court to reconsider the amount of
fees assessed (Id. at 10).
The Court of Appeals’ Opinion included a dissent
which determined that the award of attorney fees
should be reversed “because the district failed to
correctly apply Christiansburg Garment Co. v. EEOC,
434 U.S. 412 (1978), and there was some basis for
Plaintiff’s claim, . . .” (App. B at 11). The dissent
explained that in assessing attorney fees, the District
Court focused on the falsity of the allegations made in
Petitioners’ speech. Specifically, the motivation for
attorney fees from the lower court came from the
determination that Petitioner’s lawsuit forced the City
to address the meritless claims in their speech – while
Petitioners’ lawsuit was based on their punishment
rather than the truth of allegations in the letter/speech
(Id.). The dissent explained that the focus should not
have been whether Petitioners had evidence to support
their allegations in the letter – but whether they had a
basis to bring a First Amendment retaliation claim (Id.,
citing, Smith v. Smythe-Cramer Co., 752 F.2d 180, 183
(6th Cir. 1985) and Riddle v. Egensperger, 266 F.3d
542, 558 (6th Cir. 2001) (Clay, J. concurring)).
The dissent explained that Petitioners
demonstrated some basis that they had a valid reason
to bring their First Amendment retaliation claim (Id.
at 12). Specifically Petitioners showed:
! That they Experienced adverse consequences
because of their speech – which were
determined to be too severe by the arbitrator
(Id.).

8
! That the Chief of the Parma Fire
Department testified that he believed that
Petitioner Bagi felt there was some truth to
what was asserted in their letter (Id.).
Specifically, “When asked later whether he
believed Bagi intentionally made false
accusations when writing the letter, Chief
French testified, ‘I believe he felt there was
some truth to the basis of it.’” (Id., at 3 fn1
decision, factual background, citing R. 55-1
PID 696.).
! That the arbitrator’s conclusion and
statement provided grounds that Petitioners
were not deliberately indifferent to the
falsity of their speech (Id.). Specifically, the
arbitrator rejected that “Bagi ‘made the
charges knowing they were false’ or that his
actions were ‘motivated by malice.’” (Id. at 3
decision, factual background, citing R. 54-55,
PID 512).
The dissent reasoned that “Even accepting that
[Petitioner’s] assertions were in fact not true, [the
Chief’s] concession and arbitrator’s statement gave
Plaintiffs a reasonable basis to dispute that their
speech was made with a reckless indifference to its
falsity.” (Id. dissent at 12).
Petitioners timely filed their Motion for a hearing en
banc or a Motion for rehearing. The Sixth Circuit
denied this Motion on December 17, 2019 (Appendix E).

9
On Appeal here, Petitioners argue the following:
1. The District Court abused its discretion in
awarding attorney fees under 42 U.S.C. § 1988 based
on the standards set forth in Christiansburg Garment
Co. v. EEOC, 434 U.S. 412 (1978), and adopted by
Hughes v. Rowe, 449 U.S. 5 (1980) for claims brought
under 42 U.S.C. § 1983. In the District Court’s
determination to label Petitioners’ lawsuit as frivolous
and award fees as a sanction, it used impermissible
post hoc reasoning as it focused on the falsity of the
speech and not whether Petitioners had a reason to
believe they had a valid First Amendment retaliation
claim. Christiansburg Garment Co., supra, at 421;
Riddle v. Egensperger, 266 F.3d 542, 547, 551 (6th Cir.
2001).
2. The District Court incorrectly granted an award
of attorney fees under 42 U.S.C. § 1988 to the City over
Petitioners’ objection when the City failed to submit its
documentation of attorney fees timely under the
Court’s Order.
3. The District Court abused its discretion in its
award of attorney fees under 42 U.S.C. § 1988 for work
in Petitioners’ appeal of the decision granting summary
judgment in favor of the City because there was no
determination by the Sixth Circuit that the appeal was
frivolous and the City did not move for such an order
under Fed. R. App. P. 38.
4. The District Court abused its discretion by not
permitting Petitioners to engage in discovery over the
amount or reasonableness of the fees or provide a

10
hearing on attorney fees and/or supplemental attorney
fees.
REASONS FOR GRANTING THE PETITION
The Chill and Fear to Seek Protection of First
Amendment Rights
By ordering a sanction of significant attorney fees
against the public employees under 42 U.S.C. § 1988
applied to the facts of this case, the lower courts set a
dangerous precedent for public employees in their
ability or willingness to bring a claim to protect their
speech under the First Amendment when it turns out
that the speech itself was incorrect
The lower court’s determination that the public
employees’ retaliation lawsuit for their ultimately
unprotected speech was frivolous creates an extreme
chilling effect upon public employees in the
enforcement of their First Amendment rights when the
authority that ultimately decided that the public
employees should be punished for the same speech also
determined that they did not knowingly speak falsely
or act with malice in writing the letter in question.
The standard under Christiansburg Garment Co.,
supra and Hughes, supra was clearly established so
that the loss of a case for civil rights plaintiffs alone is
not sufficient to award fees to a prevailing defendant.
Hughes, supra at 14; Riddle, supra, at 556, 558 (Clay,
J. concurrence). “An award of attorney fees against a
losing plaintiff in a civil rights action “`is an extreme
sanction, and must be limited to truly egregious cases
of misconduct.’” Riddle, supra, at 549, citing, Jones v.
The Continental Corp., 789 F.2d 1225, 1232 (6th Cir.

11
1986). Fees may only be awarded under Section 1988
if the party’s action was frivolous, unreasonable, or
without foundation. Riddle, at 547, citing, Wayne v.
Village of Sebring, 36 F.3d 517, 530 (6th Cir. 1994),
quoting, Christiansburg Garment Co., supra, at 421.
This standard to permit attorney fees in
Christiansburg Garment Co. could not have been met
when public employees speak out and are punished and
as the dissent and the facts recited from the Sixth
Circuit’s Opinion points to the existence of undisputed
facts that:
(1) the arbitrator determined that the
punishment issued by the City’s Fire
Department was too severe, and rejected that
Petitioner Bagi wrote the letter knowing that
the allegations were false or that his speech in
the letter was motivated by malice (Appendix A
at 3 decision, and at 12 dissent); and
(2) the Chief of the Fire Department testified that
he believed that Petitioner Bagi felt there was
some truth to what he asserted in the letter (Id.).
In addition in the discovery process before the City
moved for summary judgment Petitioners were able to
elicit facts that demonstrated that they believed the
speech in the letter was true when it was written.
Such facts included deposition testimony that the
captain who was viewed critically in the letter was seen
as controlling, a bully, very biased, manipulative,
conniving, and vindictive. The captain would berate
others in the Fire Department, he had an explosive
personality, and was not trusted. The unit for which

12
the letter questioned the propriety of a test was seen by
some firefighters as a “good old boys club.” There was
a belief in the fire department that the captain would
pick who he wanted to be in the unit related to the test,
and the union president said he could “understand
where some of [the firefighters who signed the letter]
had concerns or dealings with Captain Poznako in the
past would have concerns as to his integrity to a
degree.” (Lovejoy dep tr, R. 57-1 at 101). The captain
even told a firefighter before the test that, “He had
some concerns of people bringing up that the test might
not have been fair[.]” (Whelan dep tr, R. 56-1 at 124).
Further, the firefighters who signed the letter said they
had done so in good faith.
Permitting a sanction in excess of $175,000 to stand
in a First Amendment retaliation claim against public
employees – as against the firefighter Petitioners here,
will chill each and every public employee in the future
from bringing suit against their employer to defend
their speech rights. See, Riddle, supra at 551. There
is a heightened standard in place for a plaintiff in a
civil rights claim under Section 1983 as to whether the
lower Court abused its discretion in order to “reduce[]
the ‘chilling effect on a plaintiff who seeks to enforce
his/her civil rights.’” Michigan Flyer LLC v. Wayne Co.
Airport Auth., 860 F.3d 425, 433 (6th Cir. 2017), citing,
Riddle, supra, at 551, and relying on, Christiansburg
Garment Co., at 421. For instance,
A potential plaintiff’s fear of an increased risk of
being assessed attorney fees after extensive
discovery has taken place and who continues to
proceed to a ruling on a summary judgment

13
motion, would create a disincentive to the
enforcement of civil rights laws and would have
a chilling effect on a plaintiff who seeks to
enforce his/her civil rights, especially against a
government official.
Riddle, supra, at 551.
As set forth above, Petitioners had a basis to assert
their First Amendment retaliation claim (Appendix A
at 11, 12). With the order of attorney fees in the case
sub judice, it would stand that no public employee
could safely apply reason and common sense to assert
a First Amendment retaliation claim without the
sincere fear of being sanctioned with award of attorney
fees in favor of the public employer to the point of their
economic ruin. In such a situation. no public employee
who makes a statement that turns out be incorrect may
reasonably know whether its safe to bring a First
Amendment retaliation claim.
If the award of sanctions is permitted to stand
under Section 1988 and the Christiansburg standards,
there would be no clear indication to a public employee
or their counsel whether a non-frivolous claim exists
when the speech sought to be protected turned out to
be incorrect.4 The award of sanctions in the case sub
4

This is particularly true – given that the law on First
Amendment retaliation is arguably complex, and the law supports
the concept that speech is protected even if the plaintiff’s position
in the speech turned out not to be true – which is even the case
when a plaintiff lacks evidence of the allegations made in the
speech. Westmoreland v. Sutherland, 662 F.3d 714, 721, 722 (6th
Cir. 2011); See v. City of Elyria, 502 F.3d 484, 492 (6th Cir. 2007);
Rodgers v. Banks, 344 F.3d 587, 601 n.5 (6th Cir. 2005); Farhat v.

14
judice vitiates the concern and direction against post
hoc reasoning after the public employer is awarded
judgment in its favor. See, Riddle, supra, at 547-48,
551, citing, Christiansburg Garment Co., supra, at 421.
Here, the Christiansburg standards were not
correctly applied, and the result is a dangerous chilling
effect on public employees who wish to protect their
rights under the First Amendment. For this reason,
the award of sanctions in favor of the Respondent must
be reversed.
Respondent Failed to Adhere to District Court’s
Order to Obtain Attorney Fees
Procedurally, the Respondent City blatantly failed
to follow the District Court’s Order to obtain such fees,
which directed the City to file documentation of its
additional fees by December 26, 2016 – within ten days
from the Order (Appendix C at PID 1959). Appellee’s
counsel submitted a declaration, but the documentation
related to the fees was submitted later, without leave
of Court (Declaration of Respondent’s counsel, R.102
PID 1786). Petitioners objected to the award of
attorney fees on this basis, and for this reason the City
should have been seen to have waived its opportunity
to seek the extraordinary remedy and sanction of
attorney fees under 42 U.S.C. § 1988 in the face of
Petitioners’ loss of their Section 1983 civil rights claim.

Jopke, 370 F.3d 580, 591 (6th Cir. 2004); Chappel v. Montg. Co.
Fire Prot. Dist. No. 1, 131 F.3d 564, 576-77 (6th Cir. 1997);
Williams v. Commonwealth of Ky., 24 F.3d 1526, 1535-36 & n. 3
(6th Cir. 1994).

15
The Court of Appeals’ Decision Related to
Discovery & a Hearing is Inconsistent
The Sixth Circuit determined that the District
Court did not “abuse its discretion by denying limited
discovery or a hearing on the reasonableness of the fee
award.” (Appendix A at 9). But then the Court of
Appeals also determined that because an award of
attorney fees under Section 1988 is an extreme
sanction it remanded the case to the District Court for
consideration of the reasonableness of the award in
terms of Petitioners’ ability to pay (Id. at 9-10).
The Sixth Circuit took objection with the fact that
Petitioners did not identify what information they
would have sought had discovery been permitted (Id. at
9). Petitioners assert that because of the extreme and
extraordinary nature of the sanction – they were not
required to specifically provide a blue print or basis for
discovery, or to speculate on what would have been
retrieved through discovery. They should have been
permitted by the District Court to explore among other
matters – whether the billing of the City’s counsel was
repetitive, whether the City was actually billed for the
amounts set forth in its counsel’s documentation, and
the reality of the billed time and what was necessary
under counsel’s entries.
Much of the information that would have been
sought by Petitioners is the reasonableness of the
attorney fees – which the Court of Appeals remanded
on only a very limited basis based on Petitioners’
ability to pay. This part of the Court of Appeals’
decision is inconsistent, and Petitioners should have

16
been able to explore the overall reasonableness of the
attorney fees sought by the City.
Respondent Not Entitled to Attorney Fees on
Appeal
After the Sixth Circuit affirmed summary judgment
in favor of the Respondent City, the Court of Appeals
did not issue any order or any indication that the
appeal before it was frivolous under Fed. R. App. P. 38,
and the City did not seek such an order from the Court
of Appeals. Instead, it waited almost four months
before it filed its Motion in the District Court for said
fees. In its Supplemental Motion, the City did not put
forth any basis why or how the determination by the
Sixth Circuit – that Appellants’ speech did involve a
matter public concern – made their Appeal frivolous.
The Appeal in Case No. 16-4011 was not determined
to be frivolous under Section 1988 or an appeal “. . . in
which no justiciable question has been presented and
[the] appeal is readily recognizable as devoid of merit
in that there is little prospect that it can ever succeed.”
Mys v. Mi. Dept. of State Police, Case No. 17-445 at 2
(6th Cir. 2018) (not recommended for publication),
citing, Wilton Corp. v. Ashland Castings Corp., 188
F.3d 670, 676-77 (6th Cir. 1999) (quoting Blacks Law
Dictionary). The Sixth Circuit determined that the
speech at issue was not protected under the First
Amendment because it not touch a matter of public
concern – not that their retaliation claim was devoid of
merit. Accordingly, for these reasons the award of
attorney fees for work on the appeal should not have
been allowed.

17
CONCLUSION
For each of the foregoing reasons, this Petition for
a writ of certiorari should be granted.
Respectfully submitted,
DAVID GLENN PHILLIPS
Counsel of Record
The Brown Hoist Building
4403 St. Clair Avenue
Cleveland, Ohio 44103
(216) 531-0123
d.g.phillips@davidglennphillips.com
Counsel for Petitioners

